-                     CLOSEOUT FOR M94100034



                                                -
      This case came to OIG in an October 11, 1994 letter from-
            (the complainant), President of the         Corporation.



corporation. He also expressed concern that Subject #1 "may have
misrepresented the work done by his group in an effort to obtain
funding for future projects and contracts, either by submitting
independent grant and contract proposals, or as a team member with
other organizations."
     The subjects do not appear in NSF PI history records, and
there are no proposals in the complainant's research area from the
subjects' institution, the university with which it is affiliated,
or from research organizations with which the subjects' institution
is known to.collaborate.
     Although the complainant has concerns about misconduct, he
presents no evidence of wrong doing of any kind that involves an
NSF proposal or award. This inquiry is closed and no further
action will be taken on this case.

cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                            Page 1 of 1
